1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 16-20268
-----------------------------------------------------------------------

KEITH CHESTER HILL,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT
OF CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
-----------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:15-CV-818
-----------------------------------------------------------------------------------------------------------

ON PETITION FOR REHEARING
(Filed Jul. 3, 2019)
Before HIGGINBOTHAM, ELROD, and HO, Circuit
Judges.
PER CURIAM:*
The petition for panel rehearing is denied. The
opinion filed in this case, Hill v. Davis, ___ F. App’x ___,
* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

2a
2019 WL2494528 (5th Cir. June 14, 2019) (per curiam),
is withdrawn, and the following opinion, which clarifies this court’s alternative holding in Section II.B, is
substituted.
Keith Chester Hill was sentenced by a Texas jury
to ninety-nine years for aggravated sexual assault.
During the punishment phase, counsel failed to object
to multiple pieces of evidence that connected Hill to
four additional sexual assaults in the area. The state
habeas court determined that while Hill’s counsel performed deficiently in failing to object, the errors did not
prejudice Hill with the jury.
Hill filed a 28 U.S.C. § 2254 habeas petition, arguing that the state habeas court acted contrary to
“clearly established federal law” when it assessed the
prejudicial impact of each error individually rather
than cumulatively. The district court denied the petition. It concluded that the Supreme Court has never
affirmatively adopted a cumulative error doctrine with
respect to ineffective assistance of counsel claims. Hill
therefore did not meet his burden under the Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA).
We agree. Under AEDPA, a federal court may not
grant habeas relief unless the state court decision is
“contrary to, or involved an unreasonable application
of, clearly established federal law, as determined by the
Supreme Court.” 28 U.S.C. § 2254(d) (emphasis added).
Hill does not point to any Supreme Court precedent
that instructs lower courts to employ a cumulative

3a
prejudice analysis. Moreover, we conclude that, in any
event, the alleged errors by counsel did not prejudice
Hill, even if considered cumulatively.
I.
Keith Chester Hill was charged and convicted for
aggravated sexual assault after forcing a nineteenyear-old man at gunpoint to perform oral sex. During
the punishment phase, the government introduced evidence that connected him to four additional attacks in
the area. The government used this evidence to argue
for a life sentence, stressing that Hill was a calculated
and predatory robber, abductor, and rapist, from whom
society needed to be protected. The jury handed down
a ninety-nine-year sentence, along with a $10,000
fine..
Hill does not contest his conviction. But he has initiated a series of direct and post-conviction challenges
to his sentence.
In his first challenge, Hill appealed the state trial
court’s decision to enter into evidence Hill’s written
confession wherein he admitted to committing the four
extraneous offenses. Hill contended that the confession
was obtained in violation of his Fifth Amendment right
to counsel and that the state trial court’s error was
grave enough to warrant a new trial regarding his sentence. The state intermediate court agreed that Hill
sufficiently articulated his desire for a lawyer, which
investigators ignored when they reinitiated contact.
Hill v. State, 14-08-00062-CR, 2009 WL 2145833, at *5

4a
(Tex. App.—Houston [14th Dist.] July 21, 2009, pet.
ref ’d). The state trial court therefore erred when it permitted the government to read the redacted confession
to the jury. The state intermediate court, however, rejected Hill’s argument that the confession had a negative impact on the jury verdict in light of other
evidence presented at trial. It determined that the confession “was largely cumulative and thus was relatively unimportant to the State’s case.” Id. at *6. The
Texas Court of Criminal Appeals (TCCA) refused discretionary review.
Hill subsequently filed a state habeas corpus application, where he asserted once again that the erroneous admission of his confession denied him a fair
trial at the punishment stage. Although the thrust of
his argument was the same as before, Hill raised several claims that were neither considered nor addressed
by the state intermediate court. In particular, Hill
contended that his counsel should have objected to
multiple pieces of evidence introduced during the punishment stage that linked him to the extraneous offenses, such as newspaper clippings reporting on the
sexual assaults and a class ring from one of the victims
found in Hill’s home, the search history found on his
computer, and an out-of-court statement from one of
the four victims, identifying Hill as his attacker. Because his counsel failed to do so, Hill argued that the
state intermediate court falsely believed that there
was substantial other evidence connecting Hill to the
other attacks where in fact the record was rather
sparse. According to Hill, this lapse established two

5a
separate grounds by which the state habeas court
could provide relief. First, the state habeas court could
rule that the improper reading of the confession to the
jury was indeed prejudicial since much of the evidence
that the jury would have otherwise relied on was also
inadmissible. Second, it could find that Hill was denied
effective assistance of counsel.
The state habeas court rejected both theories. The
court saw no reason to relitigate whether the admission of Hill’s confession was a reversible error. It
adopted the conclusions of the state intermediate court
and moved on without additional comment. The state
habeas court then determined that, while Hill’s representation fell below an objective standard of reasonableness, the errors made by counsel did not meet the
standard laid out in Strickland v. Washington, 466 U.S.
668 (1984). Hill’s counsel, it concluded, had no reason
to contest the search of Hill’s home. And counsel’s failure to challenge the evidence procured from Hill’s computer as well as an out-of-court statement from one of
the four victims, identifying Hill as his attacker, did
not affect the jury’s deliberations.
The state habeas court clarified in its additional
written findings of fact and conclusions of law that
even if counsel had performed adequately, the government still had compelling circumstantial evidence
that Hill committed the four additional sexual assaults. Each of the victims who testified, for example,
gave a general description of their attacker. One of
the young men testified that while he was not “a hundred percent” certain that Hill was the individual who

6a
assaulted him, “if [he] had to say ‘yes’ or ‘no,’ [he]’d say
‘yes.’ ” A class ring taken from one of the victims during
the attack was found in Hill’s home, as were newspaper clippings describing the assaults. Police also testified that the four extraneous offenses shared the same
unique modus operandi as the underlying crime for
which Hill was convicted. Namely, each involved a
young white male being abducted from or restrained in
his home, at night, using zip ties, duct tape, and a gun,
which culminated in a demand for oral sex. The record,
in short, was substantial enough for the jury to have
reasonably believed beyond a reasonable doubt that
Hill was guilty of the extraneous offenses. Based on
these findings, the TCCA denied Hill’s habeas application without a written order or a hearing.
Hill then proceeded to file a habeas petition under
28 U.S.C. § 2254. There, Hill protested the state habeas
court’s refusal to reconsider the impact that the confession may have exerted on the jury. He also maintained that his right to a fair trial was compromised
by his lack of competent counsel. The heart of his argument was that Strickland requires a cumulative
prejudice analysis. Under that view, the state habeas
court was obliged to consider the collective impact of
the errors that occurred during the trial, rather than
assess them individually. Under this approach, the
blunders committed by Hill’s counsel would be viewed
in light of the state trial court’s decision to have the
jury hear Hill’s confession as well as in light of one
another. The combination, Hill argued, created a reasonable probability that but for his counsel’s deficient

7a
performance, his sentence would have been significantly less harsh.
The district court granted summary judgment in
favor of the government. It determined that the erroneous admission of Hill’s confession “did not have a
substantial effect or influence in determining the verdict at punishment.” Hill v. Stephens, CV H-15-0818,
2016 WL 1312152, at *9 (S.D. Tex. Mar. 31, 2016), supplemented sub nom. Hill v. Davis, CV H-15-0818, 2017
WL 2819887 (S.D. Tex. June 28, 2017). Like the state
courts, the district court noted that the government
had compiled a sizeable case against Hill even excluding the confession. Against this backdrop of evidence,
it could not say that the state habeas court’s determination of harmlessness was objectively unreasonable.
Id. at *10. With respect to Hill’s ineffective assistance
of counsel claim, the district court rejected the assertion that federal law required a cumulative prejudice
analysis. It noted that while this circuit has at times
applied such an analysis in the past, the Supreme
Court never explicitly adopted a cumulative error doctrine for ineffective assistance of counsel claims. Id. at
*14. The district court acknowledged, however, that the
question of actual prejudice was “a close and difficult
one.” Id. It granted a certificate of appealability (COA),
which Hill now pursues.

8a
II.
Hill petitions this court for post-conviction relief
based on the ineffective assistance of counsel he received during the punishment stage.1 For that claim to
succeed, he would need to show (1) that his counsel’s
performance “fell below an objective standard of reasonableness” and (2) that “but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 688, 694. The
state habeas court already held that Hill satisfied the
first prong in Strickland. Neither party has objected to
this finding, so our inquiry will focus on whether Hill
was prejudiced by counsel’s mistakes.
A.
Because the state habeas court previously adjudicated this matter, our analysis is governed by AEDPA.
Under AEDPA, federal courts must defer to the state
court’s decision regarding a habeas claim unless the
“decision . . . was contrary to, or involved an unreasonable application of, clearly established federal law,
as determined by the Supreme Court.” 28 U.S.C.
§ 2254(d). The Court clarified in Williams v. Taylor that
a decision is “contrary to” if it “applies a rule that contradicts the governing law set forth in [Supreme
Court] cases.” 529 U.S. 362, 405 (2000). A decision
1

The COA granted by the district court only pertained to
Hill’s claim regarding his counsel’s deficient performance. It did
not extend to any questions over the erroneous admission of Hill’s
confession; nor did Hill petition this court to certify the matter.
The claim is therefore deemed abandoned.

9a
involves an “unreasonable application” if it “identifies
the correct governing legal principle” but “unreasonably applies [it] to the facts of the prisoner’s case.” Id. at
407.
The state habeas court’s determination of harmlessness in this case does not qualify for either AEDPA
exception. The Supreme Court has never squarely held
that the cumulative error doctrine governs ineffective
assistance of counsel claims. The most that can be said
is that several of our sister circuits have recognized, to
varying degrees, that relief can be had if the collective
harm from multiple errors adversely affected the verdict. See, e.g., Goodman v. Bertrand, 467 F.3d 1022,
1030 (7th Cir. 2006); Stouffer v. Reynolds, 168 F.3d
1155, 1163–64 (10th Cir. 1999); Berryman v. Morton,
100 F.3d 1089, 1101–02 (3d Cir. 1996); Rodriguez v.
Hoke, 928 F.2d 534, 538 (2d Cir. 1991). Hill does not
disagree—he cites no Supreme Court precedent which
affirmatively instructs lower courts to calculate prejudice on a cumulative basis.2
2

Hill cites this court’s opinion in White v. Thaler that the
state habeas court was required to apply a cumulative prejudice
analysis. 610 F.3d 890, 906 (5th Cir. 2010). Although Hill is correct that we have employed a cumulative framework at times to
assess ineffective assistance of counsel claims, there is no hard
and fast rule governing its use, even as a matter of circuit precedent. On multiple occasions, this court has either declined to apply a cumulative prejudice analysis or questioned its relevance
altogether. See, e.g., Pondexter v. Quarterman, 537 F.3d 511, 525
(5th Cir. 2008) (holding that “[m]eritless claims or claims that are
not prejudicial cannot be cumulated, regardless of the total number raised”) (alteration in original); see also Allen v. Vannoy, 659
F. App’x 792, 818 (5th Cir. 2016) (per curiam); Zimmerman v.

10a
B.
On rehearing, Hill argues that Strickland and
other Supreme Court cases require a cumulative prejudice analysis. Even assuming arguendo that he is correct, counsel’s errors, taken cumulatively, did not
prejudice Hill to such a degree that he qualifies for relief. The circumstantial evidence brought to this case
was considerable, as both the district court and state
habeas court observed. It provided ample reason for
the jury to conclude that Hill committed multiple sexual assaults and posed an ongoing threat to the community. The jury heard from multiple victims, each of
whom offered a general description of their attacker,
and one of whom tentatively identified Hill. The government introduced into evidence the class ring police
found at Hill’s house, which was taken from one of the
young victims. The government also introduced the
newspaper clippings that police obtained from Hill’s
home, which reported on the sexual assaults. The jury
heard about the unique modus operandi that governed
each extraneous offense and how it bore telling similarities to the underlying crime for which Hill was convicted. The jury also heard about the short timeframe
in which the attacks occurred and how police were convinced all were committed by the same individual.
The relevant inquiry in an ineffective assistance
of counsel claim is whether, absent counsel’s errors,
there is a reasonable probability that the defendant’s
Cockrell, 69 F. App’x 658, 2003 WL 21356018, at *12 (5th Cir.
2003) (per curiam).

11a
sentence would have been “significantly less harsh.”
Spriggs v. Collins, 993 F.2d 85, 88–89 (5th Cir. 1993)
(per curiam). Taking into account the evidence presented during the punishment stage, we find that the
jury’s verdict would have likely remained the same.
The judgment is affirmed.

12a
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
KEITH CHESTER HILL, §
§
Petitioner,
§
v.
Civil Action No. H-15-0818
§
WILLIAM STEPHENS, §
Respondent.
§
MEMORANDUM OPINION AND ORDER
(Filed Mar. 31, 2016)
Petitioner, a state inmate represented by counsel,
filed this section 2254 habeas petition challenging his
conviction and ninety-nine year sentence for aggravated sexual assault. Respondent filed a motion for
summary judgment (Docket Entry No. 11), to which petitioner filed a response (Docket Entry No. 12).
Based on consideration of the pleadings, the motion and response, the record, and the applicable law,
the Court GRANTS the motion for summary judgment and DISMISSES this case for the reasons that
follow.
I.

BACKGROUND AND CLAIMS

A jury found petitioner guilty of aggravated sexual
assault of a nineteen-year old man and assessed punishment at ninety-nine years’ incarceration. The
conviction was affirmed on appeal in an unpublished

13a
opinion, and the Texas Court of Criminal Appeals
refused discretionary review. Hill v. State, No. 14-080062-CR; 2009 WL 2145833 (Tex. App. – Houston [14th
Dist.] 2009, pet. ref d). Petitioner’s application for state
habeas relief was denied.
Petitioner raises the following two grounds for federal habeas relief:
1.

Petitioner’s written confession to four
extraneous offenses was improperly admitted at punishment because it was obtained in violation of his right to counsel.

2.

Trial counsel was ineffective at punishment for failing to object to extraneous offense testimony and evidence obtained
from petitioner’s computer.

Respondent argues that these claims are without
merit and should be summarily dismissed.
II.

FACTUAL BACKGROUND

The intermediate state court of appeals set forth
the following statement of facts in its decision affirming petitioner’s conviction:
Baytown Detective J.R. Miller questioned appellant, who was nineteen years old at the
time, following his arrest for the aggravated
sexual assault of the complainant, an adult
male. After appellant was read his rights and
acknowledged understanding them, the following exchange occurred:

14a
[Det. Miller]: Okay. This bottom part is just
a waiver of your rights and it says “I have read
this statement of my rights. I understand
what my rights are. I’m willing to make a
statement and answer questions. I wish to
waive any of those rights and I understand
and know what I am doing.” Okay. And what
that is about is I would like to visit with you
for awhile and ask you some questions,
doesn’t mean that you can’t terminate the interview still, but just means that for the time
being you’re willing to visit with me. Okay?
[Appellant]:
questions.
[Det. Miller]:

I was told not to answer any
Who told you that?

[Appellant]: I ain’t gonna say who told me
that, but I was told just “Get a lawyer.”
[Det. Miller]:
[Appellant]:

Do what?
“Get a lawyer.”

[Det. Miller]: Okay. Well that is entirely up
to you. You’re a grown man in the eyes of the
State of Texas. I’d like to visit with you obviously about what’s going on and . . . get your
feelings and thoughts about where we’re at
with this and et cetera. But you’re a grown
man, so we can start for a while and you can
choose to discontinue at any time.
[Appellant]:
[Det. Miller]:
[Appellant]:

Can I get one?
Do what?
Can I get one?

15a
[Det. Miller]:
[Appellant]:

Can you get one?
A lawyer.

[Det. Miller]: Certainly. That’s absolutely [your]
right. I can’t prevent you from doing that. Are
you saying that you would not like to visit
with me about what’s going on and . . .
[Appellant]:
[Det. Miller]:
[Appellant]:
you know.

Oh, well.
et cetera
I was told not to say nothing so,

[Det. Miller]: Somebody told you not to say
nothing – say anything?
[Appellant]: Mmm-hmm. “Get a lawyer [unintelligible].”
[Det. Miller]: Well, again, you’re a grown
man. That’s a decision you need to make for
yourself, not somebody else make it for you.
[Appellant]:

Okay. I’ll get one.

[Det. Miller]:

You’ll do what?

[Appellant]:

I’ll get one.

[Det. Miller]

Get one?

[Appellant]:

A lawyer.

Detective Miller continued questioning appellant. Appellant responded to Detective Miller’s continued questioning and eventually
waived his rights, but denied the allegations
after several hours of questioning. Later that

16a
day, appellant was taken before a magistrate
who warned appellant of his rights and noted
that appellant requested the appointment of
counsel at that time.
Authorities transferred appellant from Baytown to the downtown Harris County Jail,
where he was taken to inmate processing. On
February 8th, Detective Shane McCoy had appellant removed from inmate processing and
placed in an office. Detective McCoy re-administered appellant’s rights. Appellant waived
his rights and eventually gave a detailed written confession to the aggravated sexual assault of four men (Q.C., Cr. B., J.O., and the
complainant), and the attempted aggravated
sexual assault of a fifth man (Ca. B.).
At the suppression hearing, Detective McCoy
admitted initiating contact with appellant
and stated that to his knowledge appellant
had never requested to speak to law enforcement officers. The trial court viewed the recording of Detective Miller’s questioning,
heard the testimony of Detective Miller and
Detective McCoy, and denied appellant’s motion to suppress, finding that appellant never
unambiguously invoked his right to counsel.
At the guilt/innocence phase of trial, a redacted confession was admitted, which related appellant’s assault on the complainant.
Also, the complainant described the assault
before the jury. He testified that one evening
a dark-skinned male abducted him at gunpoint from his driveway, asked where he kept

17a
his wallet, put him face down on the ground,
bound his hands with zip ties, placed ducttape over his eyes, put him in an SUV, and began driving. The assailant eventually stopped,
told the complainant he would make him pay
for not having any money, and sexually assaulted him at gunpoint. The complainant
testified that his shirt was probably stained
with the assailant’s semen during this incident, and the State presented evidence that
semen stains on the complainant’s shirt
matched appellant’s DNA profile. After sexually assaulting the complainant, the assailant beat him with the butt of his pistol, drove
to another location, released the complainant,
and fled. The jury convicted appellant of the
aggravated sexual assault of the complainant.
At the punishment phase, the redacted portions of appellant’s confession regarding the
incidents involving Q.C., Cr. B., J.O., and Ca.
B. were read before the jury. Detective Miller
testified that the incidents occurred over ten
months and that all of the victims gave similar suspect descriptions. He further testified
that similar demands were made in each incident and that the cases involving Q.C., the
complainant, Cr. B., and J.O. were similar in
several respects, leading Detective Miller to
believe they were committed by the same
person. Detective McCoy testified that the modus operandi in the incidents involving Q.C.
and Ca. B. mirrored all of the other cases. A
class ring taken during Q.C.’s assault and a
newspaper clipping regarding the offenses
were found in appellant’s home. Analysis of

18a
appellant’s computer showed that all five victims’ names and addresses were on the hard
drive; all of their addresses had been used
in internet searches, and several of their
Myspace pages had been visited, even though
the police never released any of the victims’
information. The jury also heard the testimony of Q.C., Cr. B., and J.O. describing their
respective assaults, and Detective McCoy testified regarding the assault on Ca. B. and his
subsequent identification of appellant as his
assailant.
Q.C. testified that a masked man with a pistol
approached him at the end of Q.C.’s driveway,
pushed him to the ground, tied his hands with
zip ties, and forced him into Q.C.’s truck. The
assailant drove the truck to a field and ducttaped Q.C.’s eyes. He then took Q.C.’s wallet
and removed money from Q.C.’s bank account
after demanding his PIN at gunpoint. While
driving, the assailant sexually assaulted Q.C.
and beat him with a pistol. The assailant then
stopped in a field. He pulled Q.C. out of the
truck and threatened to shoot or kill him if he
tried to escape. He then walked Q.C. (who was
naked from the waist down at that point)
around the field, threw him down next to the
truck, and sexually assaulted him for ten to
fifteen minutes. He took naked pictures of
Q.C. and threatened to post them on Myspace
if Q.C. said anything. The assailant left Q.C.
sitting in thorn bushes in a drainage ditch
and fled with Q.C.’s class ring, among other
items. Authorities later found the ring at appellant’s residence.

19a
Cr. B. testified that he answered the door one
morning to find a black male with his face covered threatening him with a gun. The assailant entered Cr. B.’s home, told him to lie face
down, bound him with zip ties, duct-taped his
eyes and face, and took his money. Cr. B. freed
one of his hands and attempted to escape, but
his assailant put him in a “choke hold,” threw
his head against the door multiple times,
and retied his hands. The assailant then attempted to sexually assault him. When Cr. B.
resisted, the assailant beat him and placed
duct tape over his mouth and nose, causing
him to pass out. The assailant told him to
wake up, kicked him in the head, poked him
in the stomach with a knife, and threatened to
stab him. The assailant left Cr. B. with a knife
to cut himself free and fled. Cr. B. could not
identify his assailant. Detective Miller testified that a composite sketch based on Cr. B.’s
description of the assailant was not “particularly close” in appearance to a previous sketch
of the assailant from one of the other incidents and was not released for fear that it
would confuse the public. Appellant was excluded as a contributor to DNA evidence obtained by swabbing duct tape from Cr. B.’s
assault, though an unknown third person’s
DNA was found. However, analysis of appellant’s computer showed that it had been used
to visit Cr. B.’s Myspace page, and that Cr. B.’s
last name and home address had been used to
conduct white pages and Map Quest searches
on the internet.

20a
J.O. testified that he returned to his bedroom
from the bathroom one night to find a black
male with a gun in his room. The assailant put
the gun to the back of J.O.’s head, told him to
lie on the bed, covered J.O.’s face, and asked
him if he had any money. He then walked J.O.
to the woods at knifepoint. In the woods, the
assailant told J.O. to lie face down on the
ground and attempted to sexually assault
him. When J.O. resisted, the assailant picked
him up and slammed his head into a tree multiple times, knocking him down. The assailant
walked J.O. farther into the woods and attempted to sexually assault him again, but
fled when J.O. escaped. At a later date, J.O.
saw appellant at a stoplight and thought he
was his assailant. J.O. followed appellant’s car
after appellant acted suspiciously, covered up
his face, and sped away when he saw J.O. J.O.
failed to identify appellant as his assailant
from a photo array, despite recognizing him as
someone from school. However, on cross examination by the defense, J.O. testified as follows:
[Defense Counsel]: [Y]ou say you had a glance
[at your assailant] in the dark?
[J.O.]: Yes.
[Defense Counsel]: That person wasn’t Keith
Hill?
[J.O.]: Oh, I don’t know. I’m thinking it was.
[Defense Counsel]: But you’re not sure?

21a
[J.O.]: I’m not for sure, not a hundred percent. But if I had to say “yes” or “no,” I’d say
“yes.”
Though Ca. B. did not testify at punishment,
Detective McCoy (who handled Ca. B.’s case)
testified that the modus operandi in his case
was similar to Q.C.’s case in many respects,
including the description of the assailant, and
the use of a pistol and zip ties. Detective
McCoy also testified that Ca. B. identified appellant as his assailant from a photo lineup.
Further, the evidence showed that appellant’s
computer was used to access Ca. B.’s Myspace
page and conduct a map search on the internet using his address.
The jury sentenced appellant to ninety-nine
years’ imprisonment.
Hill, at *1-4 (footnote omitted).
III.

THE APPLICABLE LEGAL STANDARDS

A. Habeas Review
This petition is governed by the applicable provisions of the Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA). 28 U.S.C. § 2254. Under the
AEDPA, federal habeas relief cannot be granted on legal issues adjudicated on the merits in state court unless the state adjudication was contrary to clearly
established federal law as determined by the Supreme
Court, or involved an unreasonable application of clearly
established federal law as determined by the Supreme
Court. Harrington v. Richter, 562 U.S. 86, 98-99 (2011);

22a
Williams v. Taylor, 529 U.S. 362, 404-05 (2000); 28 U.S.C.
§§ 2254(d)(1), (2). A state court decision is contrary to
federal precedent if it applies a rule that contradicts
the governing law set forth by the Supreme Court, or
if it confronts a set of facts that are materially indistinguishable from such a decision and arrives at a result different from the Supreme Court’s precedent.
Early v. Packer, 537 U.S. 3, 7-8 (2002).
A state court unreasonably applies Supreme
Court precedent if it unreasonably applies the correct
legal rule to the facts of a particular case, or unreasonably extends a legal principle from Supreme Court
precedent to a new context where it should not apply,
or unreasonably refuses to extend that principle to a
new context where it should apply. Williams, 529 U.S.
at 409. In deciding whether a state court’s application
was unreasonable, this Court considers whether the
application was objectively unreasonable. Id. at 411.
“It bears repeating that even a strong case for relief
does not mean the state court’s contrary conclusion
was unreasonable.” Richter, 562 U.S. at 102. As stated
by the Supreme Court in Richter,
If this standard is difficult to meet, that is because it was meant to be. As amended by
AEDPA, § 2254(d) stops short of imposing a
complete bar on federal court relitigation of
claims already rejected in state proceedings.
It preserves authority to issue the writ in
cases where there is no possibility fairminded
jurists could disagree that the state court’s decision conflicts with this Court’s precedents. It
goes no farther. Section 2254(d) reflects the

23a
view that habeas corpus is a ‘guard against
extreme malfunctions in the state criminal
justice systems,’ not a substitute for ordinary
error correction through appeal.
Id., at 102-03 (emphasis added; internal citations omitted).
The AEDPA affords deference to a state court’s
resolution of factual issues. Under 28 U.S.C. § 2254(d)(2),
a decision adjudicated on the merits in a state court
and based on a factual determination will not be overturned on factual grounds unless it is objectively unreasonable in light of the evidence presented in the
state court proceeding. Miller-El v. Cockrell, 537 U.S.
322, 343 (2003). A federal habeas court must presume
the underlying factual determination of the state court
to be correct, unless the petitioner rebuts the presumption of correctness by clear and convincing evidence. 28
U.S.C. § 2254(e)(1); see also Miller-El, 537 U.S. at 33031.
B. Summary Judgment
In deciding a motion for summary judgment, the
district court must determine whether the pleadings,
discovery materials, and the summary judgment evidence show that there is no genuine issue as to any
material fact and that the moving party is entitled to
judgment as a matter of law. FED. R. CIV. P. 56(c). Once
the movant presents a properly supported motion for
summary judgment, the burden shifts to the nonmovant to show with significant probative evidence the
existence of a genuine issue of material fact. Hamilton

24a
v. Segue Software, Inc., 232 F.3d 473, 477 (5th Cir.
2000).
While summary judgment rules apply with equal
force in a section 2254 proceeding, the rules only apply
to the extent that they do not conflict with the federal
rules governing habeas proceedings. Therefore, section
2254(e)(1), which mandates that a state court’s findings are to be presumed correct, overrides the summary judgment rule that all disputed facts must be
construed in the light most favorable to the nonmovant. Accordingly, unless a petitioner can rebut the
presumption of correctness of a state court’s factual
findings by clear and convincing evidence, the state
court’s findings must be accepted as correct by the federal habeas court. Smith v. Cockrell, 311 F.3d 661, 668
(5th Cir. 2002), overruled on other grounds by Tennard
v. Dretke, 542 U.S. 274 (2004).
IV.

EXTRANEOUS OFFENSE CONFESSION

Petitioner claims that the state court unreasonably denied his claim that his confession to the commission of four extraneous offenses was improperly
admitted at punishment. He asserts that the confession was obtained in violation of his Fifth Amendment
right to counsel and caused him harm.
The state court of appeals agreed with petitioner
that the confession was improperly admitted at the
punishment hearing, but found the error harmless, as
follows:

25a
In his first issue, appellant argues the trial
court’s admission of his written confession violated his right to counsel under the Fifth
Amendment because he invoked that right
during his interrogation by Detective Miller.
Appellant requests a new trial on punishment
only and acknowledges that any error in the
admission of his redacted confession at guilt/
innocence was probably harmless given the
complainant’s testimony and the State’s DNA
evidence. We therefore limit our analysis to
whether the trial court erred by admitting appellant’s full confession at punishment.
When reviewing a trial court’s ruling on a motion to suppress, we afford almost total deference to determinations of historical facts,
especially when those determinations involve
assessment of witness credibility and demeanor.
We accord the same deference to determinations of mixed questions of law and fact if
their resolution depends upon witness credibility and demeanor. However, when, as here,
we have a videotape of the confession and an
uncontroverted version of events, we review
the trial court’s ruling on an application of law
to facts de novo.
The police must advise a suspect whom they
have arrested of the right to have counsel present during any police-initiated interrogation.
Unlike the right to counsel under the Sixth
Amendment, which attaches automatically,
the Fifth Amendment right to counsel will attach only when affirmatively invoked by the
accused. However, such an invocation must be

26a
clear, unambiguous, and unequivocal. Whether
the mention of a lawyer constitutes a clear invocation of the right to counsel will depend
upon the statement itself and the totality of
the surrounding circumstances. The test is an
objective one: the suspect “must articulate his
desire to have counsel present sufficiently
clearly that a reasonable police officer in the
circumstances would understand the statement to be a request for an attorney.”
Once the suspect has invoked the Fifth
Amendment right to counsel, police interrogation must cease until counsel has been
provided or the suspect himself reinitiates
further communication, exchanges, or conversations with police. The impetus for reinitiation must come from the suspect, not from
police interrogation or conduct that is the
functional equivalent of interrogation. “Once
a suspect has clearly invoked his right to
counsel, no subsequent exchange with the police (unless initiated by the suspect) can serve
to undermine the clarity of the invocation.”
Further, one officer’s knowledge that a defendant has requested counsel is imputed to
every other State agent.
Here, after appellant acknowledged understanding his rights, Detective Miller told him
he would like to question him about the allegations, to which appellant responded that he
was told not to say anything and to get a lawyer. Detective Miller told appellant that appellant could make that decision, but said
that they could talk for awhile and stop when

27a
appellant so chose. Appellant responded, “Can
I get [a lawyer]?” Detective Miller told appellant that getting a lawyer was his right. He
then asked if appellant was saying that he did
not want to talk with him. Appellant responded that he was told not to say anything
and to get a lawyer. Detective Miller told appellant that was a decision he needed to
make for himself. Appellant responded by
stating “Okay, I’ll get [a lawyer].” Based on
appellant’s statements and the totality of the
circumstances, we believe that appellant articulated his desire to have counsel present
sufficiently clearly that a reasonable police officer in the circumstances would understand
the statement to be a request for an attorney.
When appellant stated “Okay, I’ll get [a lawyer]” after Detective Miller put him to a decision on that issue, all questioning should
have immediately ceased until counsel was
provided or appellant reinitiated the conversation. Instead, Detective Miller asked if appellant was saying that he did not wish to
talk. Although appellant eventually stated
that he wanted to talk and waived his rights
and confessed, he did not reinitiate contact
with police. Where, as here, the authorities
followed a suspect’s clear invocation of the
right to counsel by asking if the suspect does
not wish to speak with authorities, a defendant’s response that he does wish to talk may
not be used to cast retrospective doubt on the
clarity of the initial request itself. The fact
that appellant confessed only after Detective
McCoy reapproached him, reread his rights,

28a
and secured a waiver of those rights is immaterial because Detective McCoy reinitiated
contact and was charged as a State agent with
knowledge of appellant’s prior invocation. We
therefore hold that the trial court erred in
admitting appellant’s confession, which was
taken in violation of his Fifth Amendment
right to counsel.
Having determined an error of constitutional
magnitude occurred, we must reverse the
judgment unless we determine the error was
harmless as to punishment beyond a reasonable doubt. In determining whether constitutional error in the admission of evidence is
harmless, we consider several factors, including: the importance of the evidence to the
State’s case; whether the evidence was cumulative of other evidence; the presence or
absence of other evidence corroborating or
contradicting the evidence on material points;
the overall strength of the State’s case; the
content of the erroneously admitted statement; and any other factor, as revealed by the
record, that may shed light on the probable
impact of the error on the mind of the average
juror. Other cases indicate we may consider
additional factors such as the source and nature of the error, the emphasis placed upon
the evidence by the State, the probable collateral implications of the error, the weight a
juror may have placed on the evidence, and
whether finding the error harmless would encourage the State to repeat the conduct. “Reversal is required unless we can determine,
beyond a reasonable doubt, that the failure to

29a
suppress the [erroneously admitted] statement did not contribute to the jury’s verdict at
the sentencing phase.” A constitutional error
does not contribute to the punishment if the
jury’s verdict would have been the same even
if the erroneous evidence had not been admitted. However, the fact that the State offered
the full confession only at punishment affects
our analysis because at sentencing the issue
is not whether appellant did or did not commit
the extraneous offenses, but rather the appropriate punishment to be assessed.
Although a defendant’s confession is generally likely to have a profound impact on the
jury, especially at the guilt stage of the trial,
the circumstances of a particular case may
render the erroneous admission of such evidence at sentencing harmless. For instance,
an erroneously admitted confession may play
an insignificant role in the State’s case where
the jury is presented with substantial other
evidence linking a defendant to the confessed
offenses. Here, substantial other evidence was
presented linking appellant to the extraneous
offenses. At appellant’s home authorities found
Q.C.’s class ring, linking him to Q.C.’s assault,
along with a newspaper clipping regarding
the offenses. The State presented independent
evidence of the remarkably similar modus operandi, assailant descriptions, and details of
each offense, evidence which rendered the bulk
of appellant’s confession cumulative. Although
the confession contains details not reported
by other sources regarding appellant’s planning of and preparation for the offenses, the

30a
jury could easily infer that the offenses were
calculated and predatory based on the State’s
witnesses’ offense descriptions and the evidence found on appellant’s computer. The
State also linked appellant to the offenses and
demonstrated his predatory nature through
the testimony of an F.B.I. computer analyst
regarding the contents of appellant’s computer: all five victims’ names and addresses
were found on the computer’s hard drive even
though, according to Detective Miller, that
information was not released to the public;
four of the victims’ addresses were used in
searches on map sites, while the other victim’s
address was used for a search on “New Home
Source.com”; at some point, a “.jpg” picture file
identifying Q.C.’s genitalia was on the computer; and the MySpace pages of Ca. B., Cr. B.,
and possibly J.O. had been visited from appellant’s computer. Finally, Ca. B. and J.O. identified appellant as their assailant. We note
that Cr. B. and J.O. testified that their assailant only attempted to sexually assault them,
contradicting appellant’s confession to actually sexually assaulting them. However, we
believe beyond a reasonable doubt that this
discrepancy had no effect on the jury’s punishment assessment given the undisputed evidence illustrating the brutality and violence
of the attacks on Cr. B. and J.O. Given the
strength of the State’s case absent the confession and the substantial other evidence linking appellant to the extraneous offenses, the
confession was largely cumulative and thus

31a
was relatively unimportant to the State’s
case.
Next, we examine the confession’s content and
any collateral implications stemming from
the confession’s admission. In Jones v. State,
the Court of Criminal Appeals held harmless
the erroneous admission at punishment of a
defendant’s confession to two extraneous offenses, noting that the confession was replete
with self-serving, mitigating statements and
that there were no detrimental collateral implications stemming from the taking or admission of the confession. Though appellant’s
confession contains his admission to committing the extraneous offenses, it also contains
several mitigating statements. For instance,
appellant stated that a white male intruder
molested him as a child. He then stated that
he “recently met a girl” who had a similar experience, and claimed that her story led him
to realize that he “needed to better deal with”
his childhood molestation and “needed to stop
taking the ‘dignity’ away from the white
males who [he] had been after.” Appellant also
expressed “deep regrets” over the offenses and
stated his belief that the offenses occurred
because of his mental issues, for which he expressed a desire to be treated. Finally, appellant stated that he is “very sorry” for his
actions and asked for his victims’ forgiveness.
We believe these mitigating statements negated
any harmful impact that the error might have
otherwise had on the jury’s punishment assessment. The lack of negative collateral implications stemming from the confession’s

32a
admission is further demonstrated by the fact
that appellant did not dispute his commission
of the extraneous offenses at the punishment
phase (or on appeal), but rather sought leniency from the jury and argued that the offenses were out of character.
The State placed little emphasis on the erroneously admitted confession. The State mentioned appellant’s confession at the beginning
of its final closing argument, but did so in the
context of explaining to the jury when they
could consider extraneous offenses at punishment. In giving that explanation, the State
also pointed to (1) other evidence implicating
appellant and (2) the closing argument of defense counsel to assert, without objection, that
appellant was not contesting his commission
of the extraneous offenses. At one point in
closing arguments, the State even made an
apparent attempt to discredit portions of the
confession by implying that differences between
it and some of the victims’ accounts resulted
from fabrications by appellant. Although the
State argued: “[Appellant] has the gall to
mention God in his confession. There’s only
one God in [appellant’s] world, and that’s
[appellant]. Control, power, that’s what it’s
about,” this reference to the confession was
very brief and was apparently meant to impugn appellant’s character, rather than being
an attempt to emphasize the confession itself. Finally, we see no potential harm in the
State’s argument that appellant should not
get credit for confessing when the physical evidence against him was limited by his victims’

33a
resistance, as that reference to appellant’s
confession was made in response to the defense’s closing argument.
While holding the erroneous admission of appellant’s confession harmless could encourage
the State to repeat the conduct, that factor
does not effect our decision here given our
analysis of the other factors above. We are
concerned when, as here, the police disregard
a suspect’s invocation of the right to counsel,
and we emphasize that the erroneous admission of a resulting confession will result in the
reversal of a conviction unless it is proven
harmless beyond a reasonable doubt. However, having reviewed the evidence in light of
the appropriate factors, we are convinced beyond a reasonable doubt that under the circumstances of this particular case the jury’s
punishment assessment would have been the
same even if appellant’s confession had not
been admitted. We therefore hold the erroneous admission of appellant’s confession harmless, and overrule his first issue.
Hill, at *4-8 (citations, footnote omitted). Thus, the
state court determined that the confession was inadmissible at punishment as it was obtained in violation
of petitioner’s Fifth Amendment right to counsel, but
ultimately held the error harmless. Petitioner argues
that the error was not harmless because, had the confession been suppressed, at least three of the extraneous offenses would not have been admissible as the

34a
jury could not have concluded beyond a reasonable
doubt that petitioner committed them.1
The AEDPA review to be undertaken by this Court
is whether the state court correctly determined that
petitioner was not harmed by the extraneous offense
evidence improperly admitted during punishment. The
proper standard of review for federal harm analysis
is set forth in Brecht v. Abrahamson, 507 U.S. 619,
623 (1993), which asks whether the improper evidence
had a “substantial and injurious effect or influence in
1

The parties disagree as to whether the United States Supreme Court has yet to clearly establish that the Fifth Amendment right to counsel applies in context of evidence presented at
a non-capital punishment hearing. The intermediate state court
of appeals expressly relied on Edwards v. Arizona, 451 U.S. 477,
484-85 (1981), for its ruling that, “[o]nce the suspect has invoked
the Fifth Amendment right to counsel, police interrogation must
cease until counsel has been provided or the suspect himself reinitiates further communication, exchanges, or conversations with
police.” Hill, at *5. The applicability of Edwards in context of extraneous offense evidence during the punishment phase of trial
was not before the state court in Hill. Nor was it at issue in Edwards or in any subsequent Supreme Court case cited by the parties. Both sides have, by necessity, fashioned their respective
arguments by cobbling together Supreme Court rulings, dicta,
and in the case of petitioner, observations published by Professor
Wayne R. LaFave. In short, the parties have not cited any applicable Supreme Court precedent directly on point, and neither
party has shown that the state court’s determination regarding
the inadmissibility of the complained-of evidence during punishment was, or was not, “contrary to clearly established federal
law as determined by the Supreme Court,” or did, or did not, “involve[ ] an unreasonable application of clearly established federal
law as determined by the Supreme Court.” Richter, 562 U.S. at
98-99. This specific issue was not presented to the state court, and
will not be addressed at this juncture.

35a
determining the jury’s verdict.” See Robertson v. Cain,
324 F.3d 297, 306-07 (5th Cir. 2003) (holding that
Brecht applies post-AEDPA enactment and is applicable even if the state court failed to perform a harmless
error analysis). Under the Brecht standard, a petitioner should prevail whenever the record is “so
evenly balanced that a conscientious judge is in grave
doubt as to the harmlessness of the error.” O’Neal v.
McAninch, 513 U.S. 432, 437 (1995).
In determining that petitioner had not been
harmed, the state court found that, “[H]aving reviewed
the evidence in light of the appropriate factors, we are
convinced beyond a reasonable doubt that under the
circumstances of this particular case the jury’s punishment assessment would have been the same even if
appellant’s confession had not been admitted. We
therefore hold the erroneous admission of appellant’s
confession harmless[.]” Hill, at *8.2 It is this determination of harmlessness that the Court must here review under the AEDPA standards, applying Brecht as
the metric. See Fry v. Pliler, 551 U.S. 112, 121-22 (2007)
(“We hold that in § 2254 proceedings a court must
2

The state intermediate appellate court made no mention of
Chapman v. California, 386 U.S. 18 (1967) in reaching its decision. The state court expressly relied on Rule 44.2 of the Texas
Rules of Appellate Procedure, which provides that, “[T]he court of
appeals must reverse a judgment of conviction or punishment unless the court determines beyond a reasonable doubt that the
[constitutional] error did not contribute to the conviction or punishment.” That the Chapman standard may be similar to, or the
same as, that of Rule 44.2 is of no moment here. See Fry v. Pliler,
551 U.S. 112, 121-22 (2007).

36a
assess the prejudicial impact of constitutional error in
a state-court criminal trial under the ‘substantial and
injurious effect’ standard set forth in Brecht, supra,
whether or not the state appellate court recognized the
error and reviewed it for harmlessness under the ‘harmless beyond a reasonable doubt’ standard set forth in
Chapman[.]”).
This Court has carefully reviewed the evidence
presented at the punishment hearing and finds that
the erroneous admission of petitioner’s confession to
the four extraneous offense incidents did not have a
substantial effect or influence in determining the verdict at punishment. Of the four extraneous sexual assault and robbery offenses mentioned in petitioner’s
confession, three of the victims testified live at the punishment hearing. Victim J.O. testified that his assailant broke into his bedroom, used a shirt to blindfold
him, and took him out into the backwoods at gunpoint
and knifepoint. The assailant ordered J.O. to perform
certain sexual acts on him, and slammed J.O.’s head
into a tree when J.O. tried to escape. J.O. managed to
break free and called the police. A week later, J.O. saw
his assailant driving in town, alerted the police, and
followed him. Petitioner was arrested, and J.O. identified him by a photograph. Although J.O. was unable to
state that he was “100% sure” petitioner was his attacker, he testified that, as between “yes” or “no,” he
would state that “yes,” petitioner was his attacker.
A second victim, Q.C., testified at the punishment
hearing that he had been attacked at his home by a
male wearing a ski mask and pointing a gun. The

37a
assailant zip tied Q.C.’s hands, duct taped his eyes,
and drove him around in his truck. He forced Q.C. to
withdraw money from an ATM, then demanded that
Q.C. perform sexual acts on him. Q.C. complied, but
his assailant pistol-whipped him in the head twice.
The assailant drove him to a field where he forced Q.C.
to the ground and sexually assaulted him for ten to fifteen minutes. The attacked [sic] took Q.C.’s necklace
and rings, including a class ring, and abandoned Q.C.
in a ditch. FBI agents testified that, during a subsequent search of petitioner’s home, they found Q.C.’s
rings in petitioner’s bedroom nightstand, and a copy of
a Houston Chronicle article entitled, “Serial Attacker
of Young Men Sought,” in a space above a kitchen cabinet.
A third victim, Cr. B., testified that he answered a
knock at his door and found a man pointing a gun. The
man threatened to shoot Cr. B. if he did not let him into
the house. The man forced Cr. B. to the floor, zip tied
his hands, and duct taped his eyes. He then checked Cr.
B.’s pockets and house for money, and ordered Cr. B. to
perform certain sexual acts on him. Although Cr. B.
was unable to identify his assailant, an artist’s rendering was done based on Cr. B.’s descriptions of the man,
and the rendering was admitted into evidence for the
jury’s consideration.
Forensic evidence obtained from petitioner’s computer was also introduced into evidence at the punishment hearing. Analysis of the computer and hard drive
located searches for the names and addresses of complainant, Q.C., Cr. B., Ca. B., and J.O; the names of the

38a
individual victims had not been released to the public.
Forensic analysis of petitioner’s computer also revealed
that the computer had been used to access Myspace
accounts for Ca. B., Cr. B., and J.O., and that there
was a “jpg” file, which was a picture file, entitled
“[Q.C.]sdick.jpg.” (Docket Entry No. 5-6, p. 61). These
and similar facts regarding data obtained from petitioner’s computer were set forth in the state appellate
court’s decision.
As stated by the intermediate state court of appeals, “[t]he State presented independent evidence of
the remarkably similar modus operandi, assailant descriptions, and details of each offense.” Hill, at *6. The
state court concluded that, “[g]iven the strength of the
State’s case absent the confession[,] and the substantial other evidence linking applicant to the extraneous
offenses, [petitioner’s] confession was largely cumulative.” Id. The state court also noted that, although petitioner’s confession contained his admissions that he
committed the extraneous offenses, it also contained
several mitigating statements. Id. at *7. Petitioner expressed “deep regret” for his actions and said that he
was “very sorry,” and asked for his victims’ forgiveness.
Id. He also stated he had been molested as a child and
that he believed the offenses were the result of a mental illness, for which he wanted to get treatment. Id.
The state court found that these mitigating statements
“negated any harmful impact that the error might
have otherwise had on the jury’s verdict.” Id. Petitioner’s uncle, aunt, father, and a neighbor also testified at punishment as to petitioner’s good qualities.

39a
Although the State had argued for a life sentence, the
jury assessed punishment at 99 years.
While this Court does not necessarily agree that
the confession’s mitigating elements wholly negated
any impact of petitioner’s admissions to the extraneous
offenses, it does find that the state court’s determination of harmlessness was not objectively unreasonable
under Brecht and in light of the other evidence presented in the state court proceeding. The computer
data, the detailed testimony provided by the three
other victims recounting their horrendous experiences,
the stolen rings and newspaper article uncovered at
petitioner’s home, the factual similarity among the offenses, the actual identifications of petitioner by two
victims as their attacker, descriptions of the attacker
provided by the other victims, as well as the complainant’s own testimony during guilt-innocence as to his
sexual assault and robbery at the hands of petitioner,
were of such force and significance that they warranted the jury’s verdict. The written confession undoubtedly had an impact on the jury, but this Court
cannot find that it had a substantial effect or influence
in determining the jury’s punishment assessment, and
the record is not “so evenly balanced that a conscientious judge [would be] in grave doubt as to the harmlessness of the error.” O’Neal, 513 U.S. at 437.
Petitioner argues that the state appellate court’s
determination of harmlessness was tainted by its reliance on evidence that, had counsel objected at trial,
would have been excluded. Specifically, petitioner complains that the computer data and hearsay testimony

40a
regarding the sexual assault of Ca. B. were presented
to the jury, even though the state habeas court found
the evidence inadmissible for purposes of petitioner’s
ineffective assistance of counsel claims. Petitioner’s argument ignores the crucial distinction between evidence held inadmissible as trial error and evidence
that could have been excluded had counsel objected.
Because trial counsel did not object to this other evidence at trial, its admissibility could not be challenged
on direct appeal or state collateral review. See, e.g., Corwin v. Johnson, 150 F.3d 467, 473 (5th Cir. 1998) (noting that the Texas contemporaneous objection rule for
preservation of error is strictly and regularly applied).
Consequently, the evidence was properly before the intermediate state court of appeals for purposes of its
harm analysis regarding petitioner’s confession. The
evidence is also properly before this Court as part of
the state court record for the Court’s Brecht analysis.
That counsel was found deficient in failing to object
does not supplant counsel’s actual failure to object for
purposes of a Brecht analysis.3
The state court on collateral review denied as
harmless error petitioner’s claim regarding the erroneous admission of petitioner’s confession during punishment. Petitioner fails to show that the state court’s
determination was contrary to, or involved an unreasonable application of, clearly established federal law
or was an unreasonable determination of the facts
3

Counsel’s failure is, however, central to the Strickland analysis of actual prejudice in petitioner’s ineffective assistance of counsel
claim, infra.

41a
based on the evidence in the record. This Court finds
that petitioner falls short of establishing that the improperly-admitted punishment evidence had a substantial effect or influence in determining the jury’s
punishment assessment. Respondent is entitled to
summary judgment dismissal of this claim.
V.

INEFFECTIVE ASSISTANCE
OF TRIAL COUNSEL

The Sixth Amendment to the United States Constitution guarantees a criminal defendant the right
to the effective assistance of counsel. U.S. CONST.
amend. VI. A federal habeas corpus petitioner’s claim
that he was denied effective assistance of counsel is
measured by the standards set out in Strickland v.
Washington, 466 U.S. 668 (1984). To assert a successful
ineffectiveness claim, a petitioner must establish both
constitutionally deficient performance by counsel and
actual prejudice as a result of counsel’s deficient performance. Id. at 687. The failure to demonstrate either
deficient performance or actual prejudice is fatal to an
ineffective assistance claim. Green v. Johnson, 160 F.3d
1029, 1035 (5th Cir. 1998).
A counsel’s performance is deficient if it falls below
an objective standard of reasonableness. Strickland,
466 U.S. at 688. In determining whether counsel’s performance was deficient, judicial scrutiny must be
highly deferential, with a strong presumption in favor
of finding that trial counsel rendered adequate assistance and that the challenged conduct was the product

42a
of a reasoned trial strategy. West v. Johnson, 92 F.3d
1385, 1400 (5th Cir. 1996). To overcome this presumption, a petitioner must identify the acts or omissions
of counsel that are alleged not to have been the result
of reasonable professional judgment. Wilkerson v. Collins, 950 F.2d 1054, 1065 (5th Cir. 1992). However, a
mere error by counsel, even if professionally unreasonable, does not warrant setting aside the judgment of a
criminal proceeding if the error had no effect on the
judgment. Strickland, 466 U.S. at 691.
Actual prejudice from a deficiency is shown if
there is a reasonable probability that, but for counsel’s
unprofessional error, the result of the proceeding would
have been different. Id. at 694. To determine prejudice,
the question focuses on whether counsel’s deficient
performance renders the result of the trial unreliable
or the proceeding fundamentally unfair. Lockhart v.
Fretwell, 506 U.S. 364, 372 (1993). In that regard,
unreliability or unfairness does not result if the ineffectiveness does not deprive the petitioner of any
substantive or procedural right to which he is entitled.
Id.
In context of ineffective assistance during the punishment phase of a state trial, the relevant inquiry is
whether, absent counsel’s errors, there is a reasonable
probability that the defendant’s sentence would have
been “significantly less harsh,” Spriggs v. Collins,
993 F.2d 85, 88-89 (5th Cir.1993), taking into account
“such factors as the defendant’s actual sentence, the
potential minimum and maximum sentences that
could have been received, the placement of the actual

43a
sentence within the range of potential sentences, and
any relevant mitigating or aggravating circumstances.”
Id. at 88. See also Dale v. Quarterman, 553 F.3d 876,
880 (5th Cir. 2008).4
Petitioner alleges that trial counsel was ineffective
in failing to object to inadmissible evidence at the punishment hearing. Specifically, he claims that counsel
should have objected to the hearsay testimony regarding Ca. B.’s attack and the data obtained from his computer. In rejecting these claims, the state habeas court
made the following relevant supplemental findings of
fact and conclusions of law:
7.

4

The Court finds that [trial counsel’s] performance fell below an objective standard
of reasonableness when he failed to object to the admission of [Ca. B.’s] hearsay
statement. The court finds that [Ca. B.]
was one of 5 young men who were brutally abducted and assaulted in a unique
and aggressive manner. The Court finds
that even though the jury should not have
heard [Ca. B.’s] hearsay statement, they
properly heard the testimony of [complainant, J.O., Q.C., and Cr. B.]. The Court
finds that the State’s argument for the
maximum punishment was based on a
plea for law enforcement to protect the

The Spriggs “significantly less harsh” standard applies
here because the alleged ineffective assistance arose during a
state sentencing hearing, not a federal one. See United States v.
Grammas, 376 F.3d 433, 438 & n. 4 (5th Cir. 2004) (holding that
Spriggs does not apply to federal sentencing).

44a
community from Applicant. The State
argued Applicant was a predator and a
calculating abductor and rapist who collected trophies from his victims.
The Court finds that based on the totality
of evidence submitted to the jury and the
State’s argument, even if counsel had performed adequately as to the testimony of
[Ca. B.], the result would not have been
different.
(Docket Entry No. 5-3, pp. 6-7.) The Texas Court of
Criminal Appeals relied on these findings of fact and
conclusions of law in denying habeas relief. Id., at
cover.
The state habeas court also made the following
supplemental findings of fact and conclusions of law in
rejecting petitioner’s ineffective assistance claim regarding the computer hard drive evidence:
3.

The court finds that, even though the evidence seized from the computer should
not have been admitted before the jury,
the jury had very compelling circumstantial evidence that Applicant committed
the aggravated sexual assault of [Q.C.]
without the computer evidence. [Q.C.] described a sexual assault which mirrored
the details of [complainant’s] assault. The
assaults occurred in the same area and in
a close time frame. Although [Q.C.] could
not identify his assailant, [his] ring was
found in Applicant’s home and [Q.C.] was
later found to be a student in the same

45a
high school class as Applicant. Looking
at the totality of the circumstantial evidence, the court finds that the jury could
have reasonably believed beyond a reasonable doubt that applicant committed
the aggravated sexual assault of [Q.C.]
even without the computer evidence.
4.

The court finds that, even though the evidence seized from the computer should
not have been admitted before the jury,
the jury had very compelling circumstantial evidence that Applicant committed
the aggravated sexual assault of [J.O.]
without the computer evidence. The court
finds that [J.O.] described a sexual assault and abduction with details that
mirrored the facts of the [complainant’s,
Q.C.’s, and Cr. B’s] cases. Although [J.O.]
was unable to positively identify his assailant, he later saw a person whom he
believed to be his assailant driving a
Jeep. [J.O.] felt so strongly about the person driving the Jeep, that he followed him
to a police station, got a partial license
plate from the Jeep and learned that the
Jeep was registered to Phillip Hill, the applicant’s father. The driver of the Jeep
was later determined to be Applicant.
[J.O.] also gave a tentative identification
of the Applicant and provided a description to a sketch artist that matched the
description of the Applicant. [J.O.] was also
found to be a former high school classmate of the Applicant’s. Looking at the totality of the circumstantial evidence, the

46a
court finds that the jury could have reasonably believed beyond a reasonable
doubt that applicant committed the aggravated sexual assault of [J.O.] even
without the computer evidence.
5.

The Court finds that, even though the evidence seized from the computer should
not have been admitted before the jury,
the jury had very compelling circumstantial evidence that Applicant committed
the aggravated sexual assault of [Cr. B.].
[Cr. B.] testified in the punishment phase
to details of his sexual assault which mirrored the other sexual assaults of [complainant, J.O., and Q.C.]. The Baytown
location, the close proximity in time, the
implements used in the crime and the
unique type of assault all mirrored the assaults of other complainants. The jury
also learned that [Cr. B.] was a former
high school classmate of Applicant. Although [Cr. B.] could not provide a positive identification of the defendant, he
did provide a general description to a police artist, who produced a sketch of his
assailant. This sketch was submitted to
the jury. Looking at the totality of the circumstantial evidence, the court finds that
the jury could have reasonably believed
beyond a reasonable doubt that applicant
committed the aggravated sexual assault
of [Cr. B.], even without the computer evidence seized from the residence of Applicant.

47a
6.

The Court finds that [trial counsel’s] performance fell below an objective standard
of reasonableness by failing to object to
the admission of evidence found on Applicant’s computer; however, based on the
other compelling circumstantial evidence
heard by the jury, the Court finds that, if
counsel had performed adequately, the result would not have been different.

Id., pp. 4-7. The Texas Court of Criminal Appeals relied
on these findings of fact and conclusions of law in denying habeas relief. Id., at cover.
In addressing petitioner’s Strickland claim, the
state habeas court agreed with petitioner that counsel
was deficient in failing to object to [Ca. B.’s] hearsay
testimony and the hard drive evidence, but it determined that, even had counsel performed adequately,
the result at punishment would not have been different. Thus, the state habeas court applied the deficient
performance and actual prejudice analysis required
under Strickland. 466 U.S. at 694 (requiring a “reasonable probability that, but for counsel’s unprofessional
error, the result of the proceeding would have been different”). Under AEDPA, this Court must ask if the
state court decision was “contrary to, or involved an
unreasonable application of, clearly established federal law, as determined by the Supreme Court of the
United States,” or “resulted in a decision that was
based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.” Moore v. Cockrell, 313 F.3d 880, 881 (5th Cir.

48a
2002); 28 U.S.C. § 2254(d). Having the [sic] reviewed
the record, and in light of the state court determinations and the AEDPA standards for review, this Court
cannot find that petitioner met the high burden of
proof set by Strickland as to actual prejudice or that
he meets the even higher burden of proof set by
AEDPA.
Petitioner further argues that, even if the state
court determined that petitioner was not prejudiced by
counsel’s separate acts of deficient performance, the
state habeas court should have considered the cumulative prejudicial effect of counsel’s errors. The Fifth
Circuit Court of Appeals has in some cases applied the
cumulative error doctrine to claims of ineffective assistance of counsel. See White v. Thaler, 610 F.3d 890, 912
(5th Cir. 2010) (discussing, in the alternative, “the combined prejudicial effect” of counsel’s errors); Richards
v. Quarterman, 566 F.3d 553, 564 (5th Cir. 2009) (“We
will address each aspect of [counsel’s] performance
the district court found deficient before considering
whether [petitioner] was cumulatively prejudiced thereby.”). The doctrine, however, has not gone unquestioned. See Moore v. Johnson, 194 F.3d 586, 619 (5th
Cir. 1999) (stating, in a pre-AEDPA context, that the
court was unable to find that the cumulative effect of
all deficiencies at the guilt phase was sufficient to render the guilty verdict unreliable); Miller v. Johnson,
200 F.3d 274, 285-86 n. 6 (5th Cir. 2000) (holding that
petitioner had not shown cumulative error with respect to his ineffective assistance of counsel claim but
not specifically addressing whether cumulative error

49a
applied after AEDPA). The applicability of the doctrine
post-AEDPA was questioned in Zimmerman v. Cockrell, 69 F. App’x 658, 2003 WL 21356018 (5th Cir. 2003):
We have reservations with respect to the applicability of cumulative error in the context
of ineffective assistance after the enactment
of AEDPA. This is because in order for there
to be constitutional error in the form of ineffective assistance of counsel, the petitioner
must fulfill both prongs of Strickland. If either
prong is not satisfied, then the petitioner has
not shown constitutional error, much less
unreasonable constitutional error. On the
other hand, if a petitioner demonstrates both
prongs of Strickland and an objectively unreasonable determination in state court, relief is
available. There is no need to cumulate. Nonetheless, in an abundance of caution, we have
examined [petitioner’s] claim of ineffective assistance under the rubric of cumulative error
and reject [the] claim. Accordingly, the aboveclaimed individual errors do not merit relief,
nor do we conclude that the cumulative effect
of the alleged errors fatally infected the fundamental fairness of the trial.
Id. at *12 (footnote omitted). However, in a recent unpublished decision, the Fifth Circuit declined to apply
the cumulative error doctrine because no multiple instances of deficient performance were shown. Dodson
v. Stephens, 611 F. App’x 168, 178-79 (5th Cir. 2015).
Regardless, it does not appear the Supreme Court itself has clearly held that the cumulative error doctrine
applies post-AEDPA in context of ineffective assistance

50a
of counsel claims. Consequently, petitioner cannot show
that any failure by the state court to apply the cumulative error doctrine, or to find actual prejudice, was
contrary to, or involved an unreasonable application of,
Strickland or other Supreme Court precedent.
The state court on collateral review denied petitioner’s claim for ineffective assistance of counsel. Petitioner fails to show that the state court’s determination
was contrary to, or involved an unreasonable application of, Strickland or was an unreasonable determination of the facts based on the evidence in the record.
Respondent is entitled to summary judgment dismissal of this claim.
VI.

CERTIFICATE OF APPEALABILITY

The question of actual prejudice that may have
been caused by counsel’s deficient performance during
the punishment hearing is a close and difficult one,
and this Court acknowledges that a different jurist
might reasonably reach a different determination as to
whether petitioner was prejudiced by counsel’s errors.
The Court will therefore grant petitioner a certificate
of appealability as to whether the state court was objectively unreasonable in determining that petitioner
was not prejudiced by trial counsel’s deficient performance during the punishment phase of his trial.

51a
VII.

CONCLUSION

Respondent’s motion for summary judgment
(Docket Entry No. 11) is GRANTED and this lawsuit
is DISMISSED WITH PREJUDICE. Any and all
pending motions are DENIED AS MOOT.
A certificate of appealability is GRANTED as to
the issue of whether the state court was objectively unreasonable in determining that petitioner was not prejudiced by trial counsel’s deficient performance during
the punishment phase of his trial.
SIGNED at Houston, Texas on the 31st day of
March, 2016.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES
DISTRICT JUDGE

